No. 21-

IN THE
Supreme Court of the United States

JAYSON BADILLO,

Petitioner,

v.

STATE OF RHODE
ISLAND DEPARTMENT OF
CORRECTIONS, ET AL.,

Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, | certify that the Petition for a Writ of Certiorari in this matter, was served via

electronic mail and/or regular mail, postage prepaid on all parties required:

Neil F.X. Kelly Solicitor General of the United States
Assistant Attorney General Room 5616, Department of Justice
150 South Main St. 950 Pennsylvania Ave., N.W.
Providence, RI 02903 Washington, D.C. 20530-0001

(401) 272-4400 (202) 514-2217

nkelly@riag.ri.gov SupremeCtBriefs@usdoj.com

Counsel for Respondents R.I. Dept. of Counsel for Respondent United
Corrections and State of Rhode Island States of America

and correct.

Thomas W. Lyons, Esq.

I declare under penalty of perjury that the foregoing is

   
   

  

Date: June 2, 2021
